HHS/OIG, Audit -"Audit of Medicaid Payments for Oxygen-Related Durable Medical Equipment and Supplies,"(A-05-03-00018)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Oxygen-Related Durable Medical Equipment
and Supplies," (A-05-03-00018)
July 16, 2004
Complete
Text of Report is available in PDF format (273 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report provides summary results of audits completed in 9 States and additional analyses in 41other
States of paid claims for oxygen related durable medical equipment (DME) and supplies.  The audits were made to determine
whether State Medicaid programs reimbursed providers in excess of Medicare payment limits for DME and supplies used to
provide oxygen.  We found that Medicaid paid providers in 6 of the 9 States approximately $12.7 million (Federal share
$7.3 million) more than Medicare would have paid.  Further, our analyses in the other 41 States demonstrated that
significant additional savings are possible.  We recommended that the Centers for Medicare & Medicaid Services
instruct those State agencies that limit Medicaid rates to Medicare reimbursement levels to apply Medicaid payment limits
for oxygen-related DME and supplies correctly and in a timely manner, and alert the remaining State agencies to the opportunity
to reduce Medicaid payments by limiting reimbursement rates for oxygen-related DME and supplies to the Medicare allowable
amounts.